     Management Advisory Report



     Single Audit of the Hawaii
 Department of Human Services for
the Fiscal Year Ended June 30, 2012




      A-77-14-00005 | December 2013
Single Audit of the Hawaii Department of Human Services for
the Fiscal Year Ended June 30, 2012
A-77-14-00005
December 2013                                                           Office of Audit Report Summary

Objective                                Finding

To report internal control weaknesses,   The single audit reported total on-duty, holiday and leave, and
noncompliance issues, and                overtime hours reported in the Time Reports of Personnel Service
unallowable costs identified in the      for Disability Determination Services (Form SSA-4514) were not
single audit to Social Security          accurately reported due to a mathematical error.
Administration (SSA) for resolution
action.                                  Recommendation

Background                               A finding related to the accuracy of the Form SSA-4514 was also
                                         reported in the prior single audit. In September 2013, SSA
N&K CPAs, Inc. conducted the single      confirmed that the DDB had implemented an electronic process to
audit of the Hawaii Department of        ensure the Form SSA-4514 is accurately prepared. In addition, a
Human Services (DHS). SSA is             review process was implemented. Therefore, we are not making a
responsible for resolving single audit   recommendation on this finding.
findings related to its Disability
programs. DHS is the Hawaii
Disability Determination Branch’s
(DDB) parent agency.
MEMORANDUM
Date:      December 13, 2013                                                          Refer To:

To:        Gary S. Hatcher
           Senior Advisor
           Records Management and Audit Liaison Staff
From:      Inspector General
Subject:   Single Audit of the Hawaii Department of Human Services for the Fiscal Year Ended
           June 30, 2012 (A-77-14-00005)

           This report presents the Social Security Administration’s (SSA) portion of the single audit of the
           Hawaii Department of Human Services (DHS) for the Fiscal Year ended June 30, 2012. 1 Our
           objective was to report internal control weaknesses, noncompliance issues, and unallowable
           costs identified in the single audit to SSA for resolution action.

           The N&K CPAs, Inc. performed the audit. The results of the desk review conducted by the
           Department of Health and Human Services (HHS) concluded that the audit met Federal
           requirements. In reporting the results of the single audit, we relied entirely on the internal
           control and compliance work performed by the N&K CPAs, Inc. and the reviews performed by
           HHS. We conducted our review in accordance with the Council of the Inspectors General on
           Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal programs a
           Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability Insurance (DI) and
           Supplemental Security Income (SSI) programs are identified by CFDA number 96. SSA is
           responsible for resolving single audit findings reported under this CFDA number.

           The Hawaii Disability Determination Branch (DDB) performs disability determinations under
           SSA’s DI and SSI programs in accordance with Federal regulations. The DDB is reimbursed for
           100 percent of allowable costs. The DHS is the Hawaii DDB’s parent agency.

           The single audit reported total on-duty, holiday and leave, and overtime hours reported in the
           Time Reports of Personnel Service for Disability Determination Services (Form SSA-4514) were
           not accurately reported due to a mathematical error. 2 The corrective action plan indicated the
           DDB would implement procedures to ensure the accuracy of the Form SSA-4514 including



           1
            Office of the Auditor, Financial Audit of the Department of Human Services State of Hawaii, Fiscal Year Ended
           June 30, 2012. http://www.state.hi.us/auditor/Reports/2012_Audit/DHS2012.pdf (last viewed October 17, 2013).
           2
               Id. at finding 2012-06.
Page 2 - Gary S. Hatcher

revising the worksheets used to compile data for the SSA-4514 and reviewing the accuracy of
Form SSA-4514 before submission to SSA.

A finding related to the accuracy of the Form SSA-4514 was also reported in the prior single
audit. 3 In September 2013, SSA confirmed that the DDB had implemented an electronic process
to ensure the Form SSA-4514 is accurately prepared. In addition, a review process was
implemented. Therefore, we are not making a recommendation on this finding.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you have
questions, contact Shannon Agee at (877) 405-7694, extension 18802
or Shannon.Agee@ssa.gov.




                                                    Patrick P. O’Carroll, Jr.

Attachment

cc:
Lynn Bernstein




3
 SSA OIG, Management Advisory Report: Single Audit of the Hawaii Department of Human Services for the Fiscal
Year Ended June 30, 2011 (A-77-13-00001), January 2013.
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
